No. 19-814

 

 

IN THE

Supreme Court of the Hnited States

Tony DESHAWN McCoy,

Petitioner,
Vv.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,980 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 9, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
